                 

                 

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 




                        Results of Technical Network
                        Vulnerability Assessment:
                        EPA’s Region 1
                        Report No. 12-P-0518                    June 5, 2012




Scan this mobile code
to learn more about
the EPA OIG.
Report Contributors:	                              Rudolph M. Brevard
                                                   Warren Brooks
                                                   Scott Sammons
                                                   Kyle Denning




  Hotline 

  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                 12-P-0518
                                                                                                             June 5, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Results of Technical Network Vulnerability
We sought to assess the
                                    Assessment: EPA’s Region 1
security configurations of the
U.S. Environmental Protection        What We Found
Agency’s (EPA’s) Region 1
wireless network infrastructure.    Our vulnerability assessments of Region 1’s wireless network infrastructure
We also sought to conduct           found no security weaknesses. However, our vulnerability testing of networked
network vulnerability testing of    resources located at the Region 1 facility identified Internet Protocol addresses
the Region 1 Local Area             with potentially 18 high-risk and 166 medium-risk vulnerabilities. Regional and
Network to identify resources       headquarter offices manage resources located in Region 1 that contain these
that contained commonly             weaknesses. The Office of Inspector General (OIG) met with EPA information
known high-risk and medium-         security personnel from the respective offices to discuss the findings. EPA
risk vulnerabilities.               information security personnel acknowledged the existence of the identified
                                    security weaknesses and began immediate remediation of some of these issues.
Background                          If not resolved, these vulnerabilities could expose EPA’s assets to unauthorized
                                    access and potentially harm the Agency’s network.
We conducted this audit as part
of the annual review of EPA’s        What We Recommend
information security program
as required by the Federal          We recommend that the Senior Information Officials within Region 1 and the
Information Security                Office of Environmental Information:
Management Act. We
conducted network                       	 Provide the OIG a status update for all identified high-risk and medium-
vulnerability testing in                   risk vulnerability findings within 30 days of this report.
February 2012 to identify any           	 Create plans of action and milestones in the Agency’s Automated
commonly known network                     Security Self-Evaluation and Remediation Tracking system for all
vulnerabilities and to present             vulnerabilities according to Agency procedures within 30 days of this
the results to the appropriate             report.
EPA officials, who can then             	 Perform a technical vulnerability assessment test of assigned network
promptly remediate or                      resources within 60 days to confirm completion of remediation activities.
document planned actions to
resolve the weaknesses.             The detailed testing results have already been provided to Agency
                                    representatives. Due to the sensitive nature of the report’s technical findings, the
                                    technical details will not be made available to the public.

For further information, contact     Planned Agency Corrective Actions
our Office of Congressional and
Public Affairs at (202) 566-2391.   Region 1 remediated all high-risk vulnerabilities discovered by our vulnerability
The full report is at:              testing of networked resources. Additionally, Region 1 acknowledged the
www.epa.gov/oig/reports/2012/       existence of the additional vulnerabilities that we identified and began mitigation
20120605-12-P-0518.pdf              activities related to these risks.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                           June 5, 2012

MEMORANDUM

SUBJECT:	 Results of Technical Network Vulnerability Assessment:
          EPA’s Region 1
          Report No. 12-P-0518


FROM:          Arthur A. Elkins, Jr.

TO:	           Fred Weeks
               Acting Senior Information Official
               Region 1

               Renee Wynn
               Principal Deputy Assistant Administrator and Senior Information Official
               Office of Environmental Information


This is our final report on the above subject audit conducted by the Office of Inspector General
(OIG) of the U.S. Environmental Protection Agency (EPA). The site assessment was conducted
in conjunction with our annual audit of EPA’s information security program as required by the
Federal Information Security Management Act. This report provides the summary of our security
testing of networked resources located at EPA’s Region 1 office. Our test disclosed that network
resources at the Region 1 office contained potentially 18 high-risk and 166 medium-risk
vulnerabilities. Upon analysis of the testing results, we found that both regional and headquarters
offices are responsible for managing the resources located in Region 1 that contain these
weaknesses. We provided your office representatives with the technical results during our site
visit in order to facilitate immediate remediation actions. All 18 high-risk vulnerabilities were
remediated before the issuance of this report.

We performed this audit work from February through May 2012 at EPA’s Region 1 offices in
Boston, Massachusetts. We performed this audit in accordance with generally accepted
government auditing standards. These standards require that we plan and perform the audit to
obtain sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on the audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions.



12-P-0518                                                                                          1
We conducted testing to identify the existence of commonly known vulnerabilities using a
commercially available network vulnerability assessment tool recognized by the National
Institute of Standards and Technology. We interviewed EPA personnel responsible for managing
the network resources located in Region 1. We reviewed relevant EPA policies to obtain an
understanding of the Agency’s Automated Security Self-Evaluation and Remediation Tracking
(ASSERT) system used for recording identified weaknesses. We tested the Internet Protocol
addresses associated with network resources located in the Region 1 office. We used the risk
ratings provided by the vulnerability software to determine the level of harm a vulnerability
could cause to a networked resource and accepted the results from the software tool as the level
of risk to EPA’s network. Upon follow-up with your office representatives, they acknowledged
the existence of the vulnerabilities and stated that some mitigation activities had already begun
related to these risks.

We also conducted testing of Region 1’s wireless infrastructure to identify any possible
configuration weaknesses using a commercially available wireless scanning tool. Specifically,
we tested to identify whether any unauthorized wireless devices existed on the region’s network.
We also tested to determine whether the wireless encryption protocols being used on the region’s
wireless local area network were sufficient to secure it. We found no weaknesses during either of
these tests.

Recommendations

We recommend that the Senior Information Officials within Region 1 and the Office of
Environmental Information:

       1.	 Provide the OIG a status update for all identified high-risk and medium-risk
           vulnerability findings.

       2.	 Create plans of action and milestones in the Agency’s Automated Security Self-
           Evaluation and Remediation Tracking system for all vulnerabilities according to
           Agency procedures.

       3.	 Perform a technical vulnerability assessment test of assigned network resources
           within 60 days to confirm completion of remediation activities.

Action Required

Please provide written responses to this report within 30 calendar days. You should include a
corrective actions plan for agreed-upon actions, including milestone dates.

Due to the sensitive nature of the report’s technical findings, the technical details are not
included in this report and will not be made available to the public. The OIG plans to post on the
OIG’s public website the corrective action plans that you provide to us that do not contain
sensitive information. Therefore, we request that you provide the response to recommendation 1
in a separate document, and we will not make that response available to the public if it contains
sensitive information.


12-P-0518                                                                                        2
Your responses should be provided as Adobe PDF files that comply with the accessibility
requirements of Section 508 of the Rehabilitation Act of 1973, as amended. Except for your
response to recommendation 1, which will not be posted if it contains sensitive information, your
responses should not contain data that you do not want to be released to the public; if those
responses contain such data, you should identify the data for redaction or removal.

If you or your staff have any questions regarding this report, please contact Patricia H. Hill,
Assistant Inspector General for Mission Systems, at (202) 566-0894 or hill.patricia@epa.gov; or
Rudolph M. Brevard, Product Line Director, Information Resources Management Assessments,
at (202) 566-0893 or brevard.rudy@epa.gov.




12-P-0518                                                                                       3
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                    RECOMMENDATIONS                                                               POTENTIAL MONETARY
                                                                                                                                   BENEFITS (in $000s)

    Rec.    Page                          Subject                          Status1         Action Official            Planned     Claimed    Agreed-To
    No.      No.                                                                                                     Completion   Amount      Amount
                                                                                                                        Date

     1        2     Provide the OIG a status update for all identified       U       Senior Information Officials,
                    high-risk and medium-risk vulnerability findings.                 Region 1 and the Office of
                                                                                     Environmental Information

     2        2     Create plans of action and milestones in the             U       Senior Information Officials,
                    Agency’s Automated Security Self-Evaluation and                   Region 1 and the Office of
                    Remediation Tracking system for all vulnerabilities              Environmental Information
                    according to Agency procedures.

     3        2     Perform a technical vulnerability assessment test of     U       Senior Information Officials,
                    assigned network resources within 60 days to                      Region 1 and the Office of
                    confirm completion of remediation activities.                    Environmental Information




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0518                                                                                                                                                4
                                                                                Appendix A

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Regional Administrator, Region 1
Principal Deputy Assistant Administrator for Environmental Information and
       Senior Information Official
Acting Senior Information Official, Region 1
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Senior Agency Information Security Officer
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Region 1




12-P-0518                                                                                5
